BECKER GALLAGHER
Brie fs

DoNNA J. WOLF, J.D.
JULIE A. KERSHNER, J.D.

and Records

CERTIFICATE OF SERVICE
I, Donna J. Wolf, hereby certify that 1 copy of the
foregoing Petitioner's Reply Brief in 19-767, National
Association for Gun Rights, Inc. v. Jeff Mangan, in his
capacity as Montana's Commissioner of Political
Practices, were sent via Next Day Service to the U.S.
Supreme Court, and 3 copies were sent via Next Day
Service and e-mail to the following parties listed
below, this 11th day of May, 2020:
Matthew T. Cochenour
Office of the Montana Attorney General
215 North Sanders Street
Helena, MT 59601
(406) 444-2026
mcochenour2@mt.gov
Counsel for Respondent

I

BECKER GALLAGHER LEGAL PUBLISHING INCORPORATED

(800) 890.5001
www.beckergallagher.com

8790 Governor's Hill Drive
Suite 102
Cincinnati, Ohio 45249

Franklin Square
1300 I Street, NW, Suite 400E
Washington, DC 20005

David Alan Warrington
Counsel of Record
Kutak Rock LLP
1625 Eye Street
Suite 800
Washington, DC 20006
(202) 828-2437
david.warrington@kutakrock.com
Matthew Monforton
Monforton Law Offices
32 Kelly Court
Bozeman, MT 59718

Counsel for Petitioner

All parties required to be served have been
served.
I further declare under penalty of perjury that the
foregoing is true and correct. This Certificate is
executed on May 11, 2020.

Donna J. Wolff
Becker Gallagher Legal Publishing, Inc.
8790 Governor's Hill Drive, Suite 102
Cincinnati, OH 45249
(800) 890-5001
Subscribed and sworn to before me by the said
Affiant on the date below designated.

Notary Public
[seal]

